 

IN THE
Supreme Court of the United States

HUNG LINH HOANG,
Petitioner,
v.
RAYMOND MADDEN,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

 

CUAUHTEMOC ORTEGA

Federal Public Defender
MorIiAu S. RADIN*

Deputy Federal Public Defender
821 East 2nd Street

Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Moriah_Radin@fd.org

Attorneys for Petitioner
*Counsel of Record

er
Petitioner, by his undersigned counsel, asks leave to file the attached

Petition for Writ of Certiorari to the United States Court of Appeals for the

Ninth Circuit without prepayment of costs and to proceed in forma pauperis.

Petitioner is indigent and was represented by the Office of the Federal Public

Defender for the Central District of California in District Court and the

Ninth Circuit under the Criminal Justice Act, 18 U.S.C. § 3006A(b).

This motion is brought pursuant to Rule 39.1 of the Rules of the

Supreme Court of the United States.

DATED: February 18, 2021

yes
MO

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal. Public Defender .. ©

  
     

R.
Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record
